No. 20-366
IN THE SUPREME COURT OF THE UNITED STATES
DONALD J. TRUMP, PRESIDENT OF THE UNITED
STATES, ET AL., APPELLANTS
v.
STATE OF NEW YORK, ET AL.

CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the REPLY BRIEF FOR THE APPELLANTS, via e-mail and first-class mail, postage
prepaid, this 13th day of October 2020.
[See Attached Service List]

As required by Supreme Court Rule 33.1(h), I certify that the document contains 2,986
words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d). I declare under penalty of perjury that the foregoing is true and correct. Executed
on October 13, 2020.

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
October 13, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

20-0366
TRUMP, DONALD J., PRESIDENT OF THE US
STATE OF NEW YORK, ET AL.

DAVID D. COLE
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
915 15TH STREET, NW
WASHINGTON, DC 20005
JOHN A. FREEDMAN
ARNOLD & PORTER KAYE SCHOLER LLP
601 MASSACHUSETTS AVE., NW
WASHINGTON, DC 20001
JULIA A. GOMEZ
ACLU FOUNDATION OF SOUTHERN
CALIFORNIA
1313 WEST 8TH STREET
LOS ANGELES, CA 90017
PERRY GROSSMAN
NY CIVIL LIBERTIES UNION FOUNDATION
125 BROAD STREET
NEW YORK, NY 10004
DALE E. HO
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
125 BROAD STREET
NEW YORK, NY 10004
212-549-2693
DALE.HO@ACLU.ORG

LAWRENCE J. JOSEPH
IMMIGRATION REFORM LAW INSTITUTE
1250 CONNECTICUT AVE., NW
SUITE 700-1A
WASHINGTON, DC 20036
202-355-9452
LJ@LARRYJOSEPH.COM
JEREMIAH LEE MORGAN
WILIAM J. OLSON, PC
370 MAPLE AVENUE WEST
SUITE 4
VIENNA, VA 22180-5615
703-356-5070
JMORGAN@LAWAND FREEDOM.COM
ANDRE I. SEGUAR
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
OF TEXAS
P.O. BOX 8306
HOUSTON, TX 77288
BARBARA D. UNDERWOOD
NEW YORK SOLICITOR GENERAL
28 LIBERTY STREET, 23RFD FLOOR
NEW YORK, NY 10005
212-416-6197
BARBARA.UNDERWOOD@AG.NY.GOV

